No. 19-847
IN THE

Supreme Court of the United States
JONATHAN REISMAN,

Petitioner,
v.
ASSOCIATED FACULTIES OF THE UNIVERSITY OF MAINE, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the First Circuit
CERTIFICATE OF SERVICE
I, Lauren Noto, of lawful age, upon my oath state that I did, on the 8th day of
September, 2020, serve an electronic copy of the SUPPLEMENTAL BRIEF FOR
RESPONDENT ASSOCIATED FACULTIES OF THE UNIVERSITIES OF MAINE
in the above-entitled case to all parties required to be served, who consented to
electronic service only:
Andrew Michael Grossman
Baker & Hostetler LLP
1050 Connecticut Avenue, N.W.
Suite 1100
Washington, DC 20036
agrossman@bakerlaw.com
Attorneys for Petitioner
Linda Duffy McGill
Bernstein, Shur, Sawyer and Nelson, PA
100 Middle Street
PO Box 9729
Portland, ME 04104
lmcgill@bernsteinshur.com
Attorneys for Respondents University of
Maine at Machias & the Board of
Trustees of the University of Maine
System

1

